(BIA), and the United States Geological Survey (USGS) are treating the costs associated with
contracting as administrative costs. The Bureau of Land Management (BLM) is planning to treat
these costs as part of the (non-administrative) project costs. We initially expressed concern that
NPS, FWS, BIA, and USGS were not following the Administrative Guidance. A Department
official clarified that the word “should” was used to indicate that a bureau had the option of
treating such costs associated with contracting as either an administrative or direct project cost.
Each bureau need only charge each type of cost consistently. We note that the Administrative
Guidance could be clearer that contract preparation, review, and award costs may be charged
either directly to the project or as an administrative cost, but that they must be charged
consistently.

       Additionally, a Department official indicated that no budget plans are required by the
Department or under the Recovery Act for the administrative and support costs. We believe that
without an administrative cost and support plan, it will be difficult to evaluate prospective
spending of the bureaus and to ensure accountability and transparency over these expenses. The
information provided in the bureau project plans does not contain specific information about
these costs. BLM and NPS are developing administrative cost budgets to help monitor Recovery
Act funds. Requiring administrative cost and support plans could help to ensure transparency
and oversight in expenditure of administrative costs.

        As a final note, we commend the Department for making a change in its policy due to
valid concerns raised by the bureaus. We reported in a review draft of this advisory (and bureaus
discussed with the Department) a concern over a policy pertaining to Recovery Act expenses.
The Department had communicated a policy permitting only those bureau personnel that are
entirely dedicated to Recovery Act projects to charge Recovery Act funds. According to
Department officials, the rule was established after considering the intent of the Recovery Act to
stimulate the economy, the language of the Act itself, and guidance from the Office of
Management and Budget. The Department's intent was to prevent Recovery Act funding from
becoming a supplement to the base funding of the normal appropriations.

        Many bureau employees feel that such a requirement would be restrictive and could limit
flexible scheduling of staff. They also feel it would be more cost effective to employ the skills
of field level personnel to both Recovery Act and non-Recovery Act projects than to hire two
field level staff with the same set of skills. New guidance was issued on May 6, 2009 stating
that, “Examples of allowable administrative and support costs are revised to permit charging
auditable work time devoted to ARRA [Recovery Act] funds… where the employee performs
other duties outside of the scope of ARRA [the Recovery Act].” In other words, existing staff
temporarily assigned to work on Recovery Act projects will no longer be required to work
exclusively on Recovery Act projects to be paid for from Recovery Act appropriations. To
ensure accountability and transparency, we note that it will be important for the bureaus –
perhaps with further guidance or input from the Department – to develop methods to track time
and costs for staff who work on both Recovery Act and non-Recovery Act activities.

       We do not require an official response to this advisory, but we will post it on our website
(www.doioig.gov) and Recovery.gov. Information contained in this advisory may also be
included in our semi-annual reports to Congress. Please feel free to contact me if you have any
questions.

                                                                                                 2
cc: 	   Acting Assistant Secretary – Policy, Management and Budget
        Director, Office of Financial Management
        Director, Office of Acquisition and Property Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                     3
  Report Fraud, Waste, Abuse,


     and Mismanagement


          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
           wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail: 	        U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone:		       24-Hour Toll Free            800- 424-5081
                  Washington Metro Area        703- 487-5435

By Fax:		         703-487-5402

By Internet:		    www.doioig.gov/hotline
